                                                 TABLE OF CONTENTS

                                                                                                                                               Page
1. Introduction..................................................................................................................................... 1

        A. Purpose .................................................................................................................................... 1

        B. Scope and Methodology.......................................................................................................... 1

        C. Background ............................................................................................................................. 2

2. Results of Audit................................................................................................................................ 3

        A. Contractor Selection Procedures............................................................................................ 3

        B. Accounting and Reporting Procedures. ................................................................................. 6

        C. Utilities Expenses ................................................................................................................. 10

        D. Special Event Revenues ........................................................................................................ 13

Appendix A. Comments by the Chief Executive Officer of Smithsonian Business
Ventures .............................................................................................................................................. 15



                                        ABBREVIATIONS AND ACRONYMS

                FAR                          Federal Acquisition Regulation
                GAAP                         Generally Accepted Accounting Principles
                NASM                         National Air and Space Museum
                OC                           Office of the Comptroller
                OFEO                         Office of Facilities Engineering and Operations
                OGC                          Office of General Counsel
                RFP                          Request for Proposal
                SBV                          Smithsonian Business Ventures




                                                                     iii
                                    INTRODUCTION

A. Purpose

The purpose of the audit was to determine whether the monthly proceeds from
contractor operation of flight simulators at the National Air and Space Museum (NASM)
on the National Mall have been properly received and reported to Smithsonian Business
Ventures. Smithsonian Business Ventures (SBV) requested this audit because of concerns
with the operation of the simulators.

B. Scope and Methodology

The audit was conducted from August 10, 2004, to October 26, 2004, in accordance with
generally accepted government auditing standards. We evaluated and tested the adequacy of the
controls and procedures over the collection, remittance, reporting, accounting, and contractual
requirements related to the operation of the flight simulators at the National Air and Space
Museum on the mall.

The audit covered business activity from March 31, 2002, to June 30, 2004.

We reviewed the following:

        •    NASM mall simulator contract;
        •    Accounting policies and procedures relating to the simulators;
        •    Prior audits and investigations of Smithsonian activities and of similar
             activities from other federal and local government agencies;
        •    Daily, weekly, and monthly transactions for the period March 31, 2002,
             through June 30, 2004; and
        •    Revenue collection processes for the simulators, from the receipt of the cash
             to the deposit in the bank and recording in the Lawson financial accounting
             system.

We interviewed staff from offices involved with the simulators, such as the Office of the
Treasurer, NASM, SBV, and the Office of Facilities Engineering and Operations (OFEO).
We also met with the contractor’s senior management in Tom’s River, New Jersey. We
reviewed the contractor’s records on-site in New Jersey to determine if their reported
revenues and expenses were supported by their corporate records. Through interviews
and transaction reviews, we evaluated contractor practices and controls over accounting,
contracting, and operations.

During the audit, we sought to answer questions such as:

 1. Did the contractor remit the agreed net revenue percentage promptly and accurately
    to SBV?
 2. Did the contractor report revenue and expenses and net revenue promptly and
    accurately to SBV?
 3. Were revenues and expenses accurately and promptly recorded in the accounting
    records of both SBV and the simulator contractor?



                                             1
 4. Were SBV and contractor expenses supported by documents such as purchase orders
    and invoices?
 5. Was there good communication of accounting and management information
    between the contractor and the Institution?
 6. Did SBV and the contractor comply with relevant contract terms, policies and
    procedures, and laws and regulations?
 7. Were SBV’s contracting procedures adequate?

C. Background

The simulators opened on March 31, 2002. The simulators are located in Exhibit Hall 103
of NASM on the National Mall at the west end of the museum. The simulator rides cost
$6.50 per person for a three-minute ride. The simulators operate daily from 10:00 A.M.
to 5:30 P.M.

The simulators are managed by the Smithsonian Business Ventures. SBV used a
contractor to manufacture and operate the flight simulators at NASM. The contractor
currently operates fourteen two-seat full motion interactive ride flight simulators.

The simulator contractor is responsible for the collection, handling, transporting, security
and deposit of all funds collected from the simulator rides. The simulator contractor
remits a portion of the funds to SBV based on the contract terms.

SBV records the net revenue from the simulator activities into their accounting system,
Lawson. At year-end, the accounting information from the Lawson system is
consolidated into the Institution’s PeopleSoft system.

Each year, SBV provides the Institution’s Office of the Treasurer fifty percent of the
adjusted net gain from the simulator ride sales. The adjusted net gain is calculated by
reducing the net income from the simulator operation by the amount of selected SBV
general and administrative expenses, specifically expenses for management information
systems, office management and the Museum Retail Division. The transfer of funds to
the Office of the Treasurer is used to pay back the advance funds borrowed by NASM to
construct the Steven F. Udvar-Hazy Center in Virginia.

For the period from March 31, 2002, to June 30, 2004, according to SBV’s accounting
records, the simulators produced net income of approximately $529,497 from operations.




                                             2
                                    RESULTS OF AUDIT

A. Contractor Selection Procedures

SBV, with the participation of the Office of General Counsel (OGC), did not follow best
practices of contractor selection in three respects: evaluation of the contractor’s financial
and operational capabilities; specification of the various factors affecting the contract
award and their relative importance in the request for proposal (RFP); and specification
of SBV’s needs in the RFP. SBV did not have procedures for evaluating the contractor’s
financial health and operational capabilities. SBV also lacked written contractor selection
procedures. SBV’s contracting practices also lacked key controls, such as the requirement
to define their needs. Financial and operational weaknesses resulted from a combination
of these conditions and from a reduction in the number of visitors due to the terrorist
attacks of September 11, 2001; the contractor’s difficulty obtaining long-term financing;
the less than desirable location of the simulators in the museum; and the two-month
opening delay. The contractor developed a severe cash-flow problem and failed to remit
approximately $250,000 to SBV from April 1, 2002, to November 22, 2002. SBV took
proactive steps and recovered these funds by the first quarter of 2003.

Background

In a 2000 audit report, the Office of the Inspector General recommended that SBV
develop written contracting procedures, and SBV management agreed to implement
written procedures by August 2002. SBV still had not implemented written contracting
procedures at the time of this audit. Since SBV lacked written contracting procedures, we
reviewed best contracting practices used by industry and the federal government.

Industry and federal government requirements are very similar with respect to contractor
selection procedures. A cursory review of private sector resources available on the
Internet revealed several instances of best practices. As a sample, we compared RFP forms
from IBM’s technical sales library, the American Institute of Architects (AIA) Contractor
Qualification Statement, and the Federal Acquisition Regulation (FAR). We identified
the following common contractor selection requirements in those three sources: (1)
confirmation that sufficient financial resources are available to the contractor to perform
the contract; (2) review of prior performance by the contractor; and (3) evaluation of the
contractor’s experience and technical skills. The IBM sample RFP and the FAR also share
the following additional requirements: identification and statement of the needs of the
purchaser; and disclosure of selection criteria and their relative importance. (The AIA
form did not have these requirements because they do not apply solely to the qualification
of contractors.)

Results

SBV, with the participation of OGC, did not follow best practices of contractor selection
in its evaluation of the contractor’s financial and operational capabilities; its identification
of the various factors affecting the contract award and their relative importance in the
RFP; or its specification of SBV’s needs in the RFP.

SBV lacked written contractor selection procedures. SBV did not document whether the
contractor (a) had, or had the ability to obtain, the financial resources necessary to


                                               3
perform the contract, (b) had a satisfactory performance record, or (c) had the necessary
experience and technical skills. SBV reviewed the contractor’s Dunn and Bradstreet
report but did not conduct a thorough financial analysis to determine whether payment
for manufacturing the simulators would strain the contractor’s cash flow and increase
risk.

In the RFP, SBV did not include the factors to be considered in awarding the contract and
their relative importance to price. SBV instead simply said in the RFP that financial
performance would be one of several factors to be evaluated, and did not further explain
what those factors would be. When the RFP was being developed, neither SBV nor the
Institution had expertise in simulator attractions. SBV and OGC requested the
contractors provide them with the types of simulator rides available.

SBV did not have procedures for evaluating the contractor’s financial health and
operational capabilities. SBV management told us the quality of the flight experience
provided by the contractor’s simulator was a more significant factor than other factors.
SBV management told us they believed that the contractor selected provided the best
simulation of a flight, which would translate into increased sales and profitability. They
also said that because there was a limited number of contractors that could provide the
best “flight experience,” it was difficult to minimize the risks of contractor financial health
and operational performance.

SBV’s contracting practices also lacked key controls, such as the requirement to define
their needs. Additionally, SBV did not have procedures which required SBV to specify in
the RFP the needs to be filled or the intended goals of the simulator program. Instead,
SBV’s needs were determined by reviewing the responses to the RFP.

Another key control missing from SBV contracting practices is the requirement to
document the evaluation of the offerors’ capabilities. Because SBV did not document the
review of the offeror’s capabilities and several key people involved in the evaluation are no
longer at the Institution, it was difficult for us to assess the results of their evaluation.
Based on our conversations with SBV we found that SBV did not properly weigh the fact
that the contractor had never operated flight simulators for profit, but was solely a
manufacturer and servicer of the machinery. SBV did not examine whether the
contractor would have the technical and management skills necessary to operate the
simulator in a for-profit environment.

SBV did not include the factors affecting the contract award and their relative importance
in the RFP because there were no written contract procedures. Also, there were no
written contract procedures which required SBV to include in the RFP the evaluation
factors’ relative importance to price. Financial performance and the best overall business
arrangement for the Institution were the only criteria specifically enumerated in the RFP,
but state-of-the-art machinery and providing the best flight experience were the most
heavily weighted factors actually used in selecting this contractor.

Financial and operational weaknesses resulted from a combination of these conditions, as
well as from a reduction in the number of visitors due to the terrorist attacks of
September 11, 2001; the contractor’s difficulty obtaining long-term financing; the less
than desirable location of the simulators in the museum; and the two-month opening
delay. The contractor developed a severe cash-flow problem and failed to remit $250,000


                                              4
to SBV from April 1, 2002, to November 22, 2002. SBV took proactive steps and
recovered these funds by the first quarter of 2003.

Conclusion

SBV performed a limited analysis of the financial health of the contractor. The contractor
was initially unable to make payments to SBV and perform other terms of the contract.
Also, the contractor had no experience operating a concession in a for-profit
environment, and several incidents occurred because of the lack of this experience. SBV
did not adequately address the above issues when selecting this contractor. SBV should
(a) identify the needs to be fulfilled by the contract prior to issuing the RFP, (b) evaluate
whether proposed contractors have: (i) adequate financial resources to perform the
contract, or the ability to obtain them, (ii) a satisfactory performance record, and (iii) the
necessary experience and technical skills; and (c) include the factors affecting the contract
award and their relative importance in the RFP. Also, the procedures should require the
RFP to include the evaluation factors’ relative importance to price.

Recommendation

We recommended that the Chief Financial Officer of Smithsonian Business Ventures
develop and implement written contractor selection procedures to identify needs more
precisely in requests for proposals and define and prioritize contractor selection criteria.

Management Comments

Concur. Smithsonian Business Ventures recognizes the need to develop and implement
appropriate written contractor selection procedures and will develop and implement
these procedures by March 1, 2006.

Smithsonian Business Ventures relied on the support of the Office of General Counsel
and the Office of Contracting for legal and contract work. Smithsonian Business
Ventures defined the Institution’s needs by asking the potential contractors for their best
proposal based upon on the advice of the Office of General Counsel. Smithsonian
Business Ventures agreed that greater analysis could have been applied to the review of
the vendor’s financial health. However, Smithsonian Business Ventures does not believe
the review of the vendor’s financial health would have revealed the vendor’s vulnerability
to economic downturns caused by the September 11 attacks or the vendor’s inability to
obtain long-term financing.

Office of the Inspector General’s Response

Smithsonian Business Ventures management would have had a better understanding of
the risks involved in this contract if it had thoroughly reviewed the vendor’s financial
condition. If a vendor’s financial condition is weak and the economy declines, the vendor
and its customers are exposed to increased financial and operational risks.




                                              5
B. Accounting and Reporting Procedures

SBV did not properly account for revenues, bad debt, or depreciation expenses and
accumulated depreciation for the simulators. SBV understated simulator revenue by
approximately $166,000, approximately one-half of total 2003 revenue. SBV reported bad
debt expense of $136,979 for the fiscal year ended 2002, but SBV could not provide us a
basis for their calculation. SBV also understated the amount of depreciation expense
recorded into the depreciation expense account by approximately $131,069 from April 1,
2002, to June 30, 2004. SBV had also overstated the amount of accumulated depreciation
by $80,656. These conditions occurred because SBV lacked written accounting policies
and procedures and did not review accounting entries for the simulators. SBV
management told us that review of these accounting entries was not a priority because of
the relatively less significant business operations involved. However, the lack of accurate
accounting information increases the risk of improper management decisions, decreases
control, and increases the risk of loss.

Background

SBV manages small businesses for the Institution and generates trust fund revenues from
these activities. We reviewed the accounting for simulators, which are accounted for
similarly to other concession activities, such as food services. SBV accounts for the
simulator operation as follows: revenues are entered from a monthly accounting report
provided by the contractor. SBV uses this report to manage the contractor and assess its
operations. Additionally, SBV accounts for its own simulator-related expenses by making
entries into the Lawson accounting system.

Smithsonian Directive 115, Management Controls, requires policies and procedures to
ensure that reliable data are obtained, maintained, reported, and used for sound decision-
making. Specifically, it states that, “Key duties and responsibilities in authorizing,
processing, recording, and reviewing official agency transactions should be separated
among individuals. Managers should exercise appropriate oversight to ensure individuals
do not exceed or abuse their assigned authorities.” Accounting supervisors should review
journal entries to ensure they reflect generally accepted accounting principles (GAAP)
and are complete and accurate. The supervisors should indicate their approval on the
journal entry.

General Accounting Office (now the Government Accountability Office) (GAO),
Standards for Internal Control in the Federal Government, November 1999, states that
control activities include diverse activities such as approvals, authorizations, verifications,
reconciliations, and performance reviews. The concept of approvals is more specifically
addressed in an example from the University of Virginia’s accounting procedures manual.
These procedures require that there be a separation of responsibility between individuals
making non-routine journal entries (as opposed to routine journal entries, which might
consist of the daily activity of processing accounts receivable and accounts payable).
Specifically, entries that are not normally made on a daily basis as part of the routine
accounting process should be forwarded to another individual who is responsible for
approving and entering the journal entry, and ensuring compliance with GAAP and
internal policies. Another individual should ensure that the general ledger is complete and
all supporting documentation is maintained. Additionally, there should be an approver of
the journal entry who ensures the journal entry is correct. Incorrect journal entries


                                              6
should be rejected and returned to the preparer with concise notes on what is wrong with
the journal entry and the journal entry process should be repeated. Finally, a third party
should review the journal entries prior to posting the ledger accounts.

The Financial Accounting Standards Board, in Statement of Financial Accounting
Concept number six, explains the matching principle. According to the Wiley GAAP
Interpretation and Application of Generally Accepted Accounting Principles, matching is the
simultaneous recognition of the revenues and expenses that result directly and jointly
from the same transaction or other event, and accurate financial reporting requires
revenues and expenses to be matched by being reflected in the period they were earned or
incurred, respectively. Accordingly, adjusting journal entries are required to be made at
the end of the accounting period for the income statement to properly reflect bad debt
and depreciation expenses.

According to GAAP, bad debt expense should be based on a review of historical data of
bad debts or sales to determine the collectability of accounts receivable.

The correct method for accounting for fixed assets is to recognize an asset is less useful
each year by the percentage of its useful life which has been diminished. For example, for
an asset with a five-year life, one-fifth of the asset’s value could be taken as an expense for
each year. This annual decrease in value of the fixed asset is known as depreciation
expense. A corresponding entry is made to decrease the value of the fixed asset into an
account called accumulated depreciation.

Results

SBV did not properly account for revenue, depreciation expense, or bad debt expense for
the simulators, as can be seen by comparing Table 1 with Table 2. Table 1 represents the
revenues and expenses reported in SBV’s accounting system.

                                         Table 1
                                  SBV Reported Amounts

          Fiscal Year        Revenue               Expense         Net Income
                 2002           $236,979             $183,018            $53,961
                 2003            181,459             -158,290            339,749
          2004 to date           128,151                -7,636           135,787
               Totals           $546,589              $17,092           $529,497




                                               7
Table 2 was produced by our office to more accurately reflect the results of the simulators’
operation by identifying and correcting some of the larger erroneous accounting entries.

                                          Table 2
                   Office of the Inspector General Computed Amounts

        Fiscal Year        Revenue               Expense        Net Income
                 2002          $221,424             $49,885          $171,539
                 2003           347,245              55,528           291,717
          2004 to date          169,118              42,775           126,343
               Totals          $737,787            $148,188          $589,599

Examples of accounting errors observed are listed below.

Revenue

SBV understated simulator gross revenue by $191,198 for the period from April 1, 2002,
to June 30, 2004. Most of this understatement occurred in fiscal year 2003 when SBV
used a combination of estimated and actual amounts instead of recording actual
revenues. SBV also recorded non-revenue transactions, such as depreciation and bad
debt expense, in the revenue account. There were also numerous adjustments and
corrections recorded into the revenue account.

Bad Debt Expense

SBV reported bad debt expense of $136,979 for the fiscal year ended 2002. The contractor
had not made any payments to SBV from April 2002 to November 2002. According to
GAAP, bad debt expense is calculated based on a review of historical data of bad debts or
sales to determine the collectability of accounts receivable. When SBV’s provision for bad
debt expense was examined, no basis for the entry could be found. SBV management told
us that they did not know how the entry was derived, but the result was a net receivables
balance of $100,000.

Depreciation Expense/Accumulated Depreciation

We attempted to validate the expenses related to this project recorded in SBV’s Lawson
system. We found that SBV had not recorded either depreciation expense or accumulated
depreciation according to GAAP. Instead, we found that entries were made without an
understanding of the relevant accounting theory or the overall impact of the entries on
the financial statement account balances. Using the GAAP-prescribed method would
have resulted in depreciation expense of $120,987 for the period from April 1, 2002 to
June 30, 2004. Instead, SBV had recorded entries into this account the cumulative effect
of which was a negative depreciation balance of $10,082 in June 2004, a difference of
$131,069. We also found that SBV had recorded incorrect amounts into the accumulated
depreciation account. As of June 30, 2004, SBV’s balance of accumulated depreciation
was $201,643, an overstatement of $80,656 ($201,643-$120,987). Since the amount of
accumulated depreciation equals the amount of fixed assets, management may make the
false assumption that fixed assets are fully depreciated.


                                             8
These conditions occurred because SBV lacked adequate training for its accounting staff,
written accounting policies and procedures, and supervisory reviews of accounting
entries. SBV was not reviewing accounting entries to make sure that ending account
balances were properly stated. SBV management told us that review of these accounting
entries was not a priority due to the small dollar amount of revenue from the simulators
relative to more significant SBV activities such as the stores and theatres. We do not
believe that the amount of revenue from the simulators should determine whether
accounting entries are reviewed. Effective management of accounting procedures
requires review of accounting entries, regardless of the size of the business operation.

The purpose of accounting information is to provide management with a basis for
business decisions. Inaccurate accounting information makes sound management
decisions more difficult. Although the amounts involved are small in relation to other
business activities, this business is particularly important to the Institution because funds
from its operations are being used to repay funds advanced to construct the Steven F.
Udvar-Hazy Center. And while this business operation may have been small compared to
other SBV operations, the amounts were not insignificant. For example, SBV recorded a
depreciation expense into the simulator revenue for $161,315. This error could have been
detected by supervisory review.

Conclusion

SBV should strengthen controls over the accounting for the simulators by improving its
training, written procedures, and supervision. SBV should strengthen the review of
reconciliations and end-of period adjustments. SBV should ensure accounting entries
recorded in the Lawson system are reviewed and approved in accordance with GAAP. In
particular, procedures are needed for recording estimates of expenses such as bad debt
expense and depreciation expense, and for recording periodic and year-end adjustments.

Recommendations

We recommended that the Chief Financial Officer of Smithsonian Business Ventures:

1. Develop and implement written policies and procedures to record and review
accounting entries in accordance with generally accepted accounting principles.

2. Institute accounting training for personnel entering accounting entries into the Lawson
system.

Management Comments

1. Concur. Smithsonian Business Ventures will develop and implement written policies
and procedures to record and review accounting entries in accordance with generally
accepted accounting principles by September 30, 2005.

2. Concur. Smithsonian Business Ventures will reorganize its accounting function to
address what it believes is primarily a “skill gap” issue by June 30, 2005.




                                             9
C. Utilities Expenses

The utility bills for the simulators were not accurately calculated and were not promptly
collected by the Office of Facilities Engineering and Operations (OFEO). SBV had not
clearly communicated the terms and conditions of the simulator contract to OFEO until
fiscal year 2004. Therefore, OFEO billed the contractor for heating, cooling, and
electricity when they should have been billed solely for electricity. According to OFEO’s
records, for the period from April 2002 to June 2004, the contractor should have been
billed $4,702 instead of $25,772. OFEO therefore over-billed the contractor by $21,070.
From our discussions with SBV and OFEO, it became apparent that this issue requires
coordination and cooperation between these units on a scale beyond the scope of this
audit. OFEO followed up during our audit to correct its billing of utilities.

Background

The simulator was installed in gallery 103 in the west wing of the National Air and Space
Museum by April 2002. SBV and the contractor agreed that electricity was the only utility
cost the contractor would pay and an electricity meter was installed in that gallery.
However, later that year, OFEO began billing the contractor for heating, cooling, and
electricity. The contractor’s management told us they did not pay the bill because they
did not understand why it included the costs for heating and cooling, contrary to the
terms of the contract.

Smithsonian Directive 115, Management Controls, states that “Transactions should be
promptly recorded, properly classified, and accounted for in order to prepare timely
accounts and reliable financial and other reports.”

According to the contract between the simulator contactor and the Institution, “…the
cost of electricity and any other utility cost required for the efficient performance of this
agreement...will be paid by the contractor ….” (pg. 20)

According to the Memorandum of Agreement executed in 2004 between SBV and the
Institution on utilities charged for the SBV business activities:

       (1) SBV agrees to notify the Office of Facilities Engineering and
           Operations when a new contract or business venture will be
           operating within Institution confines or leaving the Institution.

       (2) SBV agrees to reimburse the Institution for the energy
           consumed by vendors, contractors or concessions operating
           under SBV control within or on Institution property.

       (3) Failure by a contractor to pay for utilities consumed becomes a
           liability of SBV. SBV shall reimburse the Institution for any
           unpaid balances by contractors operating concessions at the
           end of each fiscal year.

The Smithsonian Institution “Inter-Unit Purchasing Requisition” form (also known as
“Form M”) requires inter-unit receivables to be submitted to the Office of the
Comptroller (OC) so they may be recorded in the same fiscal period in which the


                                              10
receivables transaction occurred. To receive payment, SBV is required to sign the Form
M and forward it to OC for processing.

Results

The utility bills for the simulator were not accurately billed and were not promptly
collected by OFEO for a number of reasons: SBV had not clearly communicated the
terms and conditions of the simulator contract to OFEO until fiscal year 2004; the
Memorandum of Agreement did not include controls to ensure accurate calculation of
utilities billed to contractors and did not include controls for following up on unpaid
bills; OFEO did not notify SBV that the contractor had not paid OFEO; and SBV did not
have procedures to reimburse OFEO for simulator utility expenses via the Form M.
During our discussions with OFEO and SBV, both agreed that the Memorandum of
Agreement that governs their relationship for billing SBV contractors needed to be
refined.

As a result, the contractor did not pay OFEO’s bills at first because the bills apparently did
not comply with the contract terms. SBV also did not record the unpaid utility expenses
as a liability in SBV accounting records because SBV was not aware of the amount that
OFEO had billed the contractor or that the contractor had not paid OFEO. SBV was
therefore not aware that it needed to reimburse OFEO for the unpaid contactor’s utility
bill.

On September 20, 2004, the contractor paid OFEO $3,511 towards the total electricity bill
of $4,702. The payment covered fiscal years 2003 and 2004, excluding the fourth quarter
of 2004. The remaining unpaid balance is $1,191, which covers the third and fourth
quarters of fiscal year 2002. OFEO informed us that they will re-bill the contractor for the
correct amount for fiscal year 2002. The contractor was billed for the fourth quarter of
fiscal year 2004. According to the Memorandum of Agreement, SBV is responsible for
paying for the contractor’s heating and cooling costs. Because OFEO and SBV had not
established which unit would pay for heating and cooling prior to the finalized
Memorandum of Agreement in 2004, it was unclear which unit would bear those costs.
Therefore SBV and OFEO have to determine which unit is responsible for paying the
$21,069 for the heating and cooling costs for fiscal year 2002 through the first three
quarters of 2004.

Conclusion

Improvements are needed in internal controls over the billing and collection of utility
services to ensure that the contractor is correctly billed and that OFEO receives payment
promptly. The communication between SBV and OFEO on the contract terms and
conditions needs to be improved. The Memorandum of Agreement should address how
SBV will make payment to OFEO in the event the contractor does not pay SBV. OFEO
and SBV should decide which organization will pay for the heating and cooling costs
incurred prior to the effective date of the Memorandum of Agreement.

Recommendation

We recommended that the Chief Financial Officer of Smithsonian Business Ventures, in
coordination with the Director of OFEO, refine responsibilities for payment of utilities


                                             11
expenses in the Memorandum of Agreement between Smithsonian Business Ventures and
the Office of Facilities Engineering and Operations.

Management Comments

Concur. Smithsonian Business Ventures will initiate discussions with the Director, Office
of Facilities Engineering and Operations by May 1, 2005.




                                           12
D. Special Event Revenues

SBV did not maintain adequate controls to account for and follow up on special event
revenues due from the National Air and Space Museum. SBV did not record the
receivables related to these revenues accurately and promptly. SBV also did not properly
evaluate whether the full amount of these receivables would be collectible and did not
follow up closely enough with NASM to collect the receivables due from NASM. SBV
lacked written procedures, did not follow generally accepted accounting principles, and
did not have clearly defined responsibility for receivable collection. SBV had not received
$63,000 in special event revenue from the museum from the inception of the simulator
operation in April 2002 to our audit cutoff of June 30, 2004.

Background

The museum conducts special events at the museum, often after hours. The museum
periodically requests the simulator contractor to make the simulator rides available for
these special events. The museum and SBV have agreed that SBV will charge the museum
$3,000 per special event for the use of the simulators. SBV should have recovered the
funds for these events promptly from the museum using an “Inter-Unit Purchasing
Requisition” form. The practice has been for the museum to contact both the simulator
contractor and SBV to request the simulators for a special event. The simulator
contractor then recorded the revenue from the special events on its monthly financial
report to SBV. However, because the contractor does not receive payment from the
museum, the contractor did not include the revenues from special events in its monthly
remittance to SBV.

Smithsonian Directive 115, Management Controls, states that “Transactions should be
promptly recorded, properly classified, and accounted for in order to prepare timely
accounts and reliable financial and other reports.”

The Smithsonian Institution “Inter-Unit Purchasing Requisition” form (Form M)
requires inter-unit receivables to be submitted to the Office of the Comptroller (OC) so
they may be recorded in the same fiscal period in which the receivables transaction
occurred. To receive payment, SBV is required to sign the Form M and forward it to OC
for processing.

Results

SBV did not maintain adequate controls to account for and follow up on special event
revenues due from the museum. SBV personnel did not record these receivables
accurately and promptly. For example, they under-recorded receivables by $15,000 in
fiscal year 2002 and $6,000 in fiscal year 2003.

SBV did not follow up closely with the museum to collect the receivables because it had
not clearly assigned one person responsibility for follow-up. Instead, SBV followed up on
the receivable by completing the Form M used to transfer the funds from the museum to
SBV annually rather than monthly.

SBV had not received $63,000 in special event revenue from the museum from the
inception of the simulator operation in April 2002 until our audit cutoff of June 30, 2004.


                                            13
SBV did not record receivables from the museum for the amount of special event revenue
for fiscal year 2002 or 2003 until September 2003 and had not recorded a receivable for
fiscal year 2004 as of October 8, 2004. By not recording receivables for the special event
revenue due from the museum, SBV understated its assets and revenues from the
operation of the simulator by $15,000 for fiscal year 2002 and $6,000 for fiscal year 2003.
Net revenues from the simulator are needed to repay funds advanced to the museum to
construct the Steven F. Udvar-Hazy Center. Museum management also told us that it
was more difficult for them to manage their budget because of the funds due SBV.

Conclusion

SBV could strengthen controls over the collection of special event revenue from the
museum by assigning responsibility for follow up and by improving procedures. During
our audit, we noticed that SBV had begun to follow up with the museum to collect the
revenues.

Recommendation

We recommended that the Chief Financial Officer of Smithsonian Business Ventures
develop and implement written procedures for SBV to accurately and promptly record
receivables and follow up on intra-institutional receivables.

Management Comments

Concur. Smithsonian Business Ventures will develop and implement written procedures
for accurately and promptly recording receivables and follow up on intra-institutional
receivables by June 1, 2005.




                                            14
Appendix A. Management Comments




                                  15
Appendix A. Management Comments (Continued)




                                    16
The following Office of the Inspector General personnel participated in this audit:
Brian Lowe, Supervisory Auditor, Douglas Kodish, Auditor, and Joyce Smith, Auditor.




                                          17
